May 1, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Musculoskeletal Global Surgery Fees Often Did Not Reflect the Number of Evaluation
               and Management Services Provided (A-05-09-00053)


The attached final report provides the results of our review of evaluation and management services
included in musculoskeletal global surgery fees for calendar year 2007. The Centers for Medicare
& Medicaid Services requested this review.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare &
Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report number
A-05-09-00053 in all correspondence.


Attachment
Department of Health and Human Services
           OFFICE OF
      INSPECTOR GENERAL




 MUSCULOSKELETAL GLOBAL
    SURGERY FEES OFTEN
   DID NOT REFLECT THE
 NUMBER OF EVALUATION AND
   MANAGEMENT SERVICES
        PROVIDED



                         Daniel R. Levinson
                          Inspector General

                             May 2012
                           A-05-09-00053
                        Office of Inspector General
                                            http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                  at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and any
other conclusions and recommendations in this report represent the findings and
opinions of OAS. Authorized officials of the HHS operating divisions will
make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare program pays for physicians’ services furnished on or after January 1, 1992, based
on an established fee schedule that is updated annually. The fee schedule amounts are based on
the resources, such as physician time and intensity of the work (measured in relative value units
(RVU)), involved with furnishing services. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, must review the RVUs at least every 5 years
and adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Included on the fee schedule are global surgery fees, which include payment for a surgical
service and the related preoperative and postoperative evaluation and management (E&M)
services provided during the global surgery period. The global period for major surgeries
includes the day before the surgery, the day of the surgery, and the 90 days after the day of the
surgery. In determining a global surgery fee, CMS estimates the number of E&M services that a
physician provides to a typical beneficiary during the global surgery period. CMS compensates
physicians for the surgical service and the related E&M services included in the fee regardless of
the E&M services actually provided during the global surgery period.

The American Medical Association Current Procedural Terminology (CPT) identifies codes that
physicians use to report medical services and procedures and claim reimbursement through the
physician fee schedule. The CPT includes 1,355 codes for major musculoskeletal global
surgeries. CMS reimbursed physicians approximately $1.5 billion for 1,331 of these CPT codes
for surgeries performed during calendar year (CY) 2007.

CMS requested this review.

OBJECTIVE

Our objective was to determine whether musculoskeletal global surgery fees reflected the actual
number of E&M services that physicians provided to beneficiaries during the global surgery
periods.

SUMMARY OF RESULTS

Musculoskeletal global surgery fees often did not reflect the actual number of E&M services that
physicians provided to beneficiaries during the global surgery periods. For 89 of the 300 global
surgeries that we sampled, either the fees reflected the actual number of E&M services provided
during the global surgery periods (24 surgeries) or the surgery was 1 of multiple surgeries (65
surgeries). For the remaining 211 global surgeries, the fees did not reflect the actual number of
E&M services provided. Specifically, physicians provided fewer E&M services than were
included in 165 global surgery fees and provided more E&M services than were included in 46
global surgery fees. (For the 65 sampled surgeries that were performed as 1 of multiple
surgeries, we were unable to determine whether the E&M services that physicians provided were



                                                i
related to the sampled surgeries or to 1 of the other surgeries performed on the same date of
service. Therefore, we did not categorize these 65 sampled surgeries as errors.)

Using our sample results, we estimated that Medicare paid a net $49 million for E&M services
that were included in musculoskeletal global surgery fees but not provided during the global
surgery periods in CY 2007. The global surgery fees did not reflect the actual number of E&M
services provided to beneficiaries because CMS had not reviewed or recently reviewed the
RVUs for most of the CPT codes in our sample.

RECOMMENDATIONS

We recommend that CMS adjust the estimated number of E&M services within musculoskeletal
global surgery fees to reflect the actual number of E&M services being provided to beneficiaries,
which would have reduced payments in CY 2007 alone by an estimated $49 million, or use the
results of this audit during the annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred, in part, with the recommendations but
planned to conduct further analysis before proposing any changes in the number of E&M
services assigned to musculoskeletal surgeries.

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

CMS noted that the savings from any change in payments associated with our first
recommendation would be redistributed among other services under the physician fee schedule.
While this is true, implementing our recommendation would more closely align payment rates
with the cost of services provided.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Physician Fee Schedule.........................................................................................1
              Global Surgery Fees ..............................................................................................1
              Musculoskeletal Global Surgeries ........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

RESULTS OF AUDIT ................................................................................................................4

          FEDERAL REQUIREMENTS .........................................................................................4

          EVALUATION AND MANAGEMENT SERVICES INCLUDED IN
           MUSCULOSKELETAL GLOBAL SURGERY FEES VERSUS SERVICES
           PROVIDED ...................................................................................................................5

          RELATIVE VALUE UNITS NOT REVIEWED.............................................................5

          RECOMMENDATIONS ..................................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .....................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
              REVIEWS FOR SAMPLED MUSCULOSKELETAL SURGERIES EXAMINED

          D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                 INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65, people with disabilities, and people with end-stage
renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program.

Physician Fee Schedule

Medicare Part B pays for physicians’ services, including surgeries and evaluation and
management (E&M) services, 1 provided to beneficiaries. Section 1848 of the Act (42 U.S.C.
§ 1395w-4) requires Medicare to pay for physicians’ services furnished on or after January 1,
1992, based on an established fee schedule that CMS updates annually. 2 The fee schedule
considers three major categories of costs required to provide physicians’ services: physician
work, practice expense, and malpractice insurance. Sections 1848(b) and (c) of the Act require
that fee schedule amounts be based on the resources, such as physician time and intensity of the
work, needed to furnish services. For each of the three categories of costs, CMS determines a
relative value unit (RVU), which is a measure of the resources involved with furnishing a
service, and uses the three RVUs to calculate the fee schedule amount for each physician service.

Section 1848(c)(2)(B) of the Act requires CMS to review the RVUs at least every 5 years and to
adjust them as it deems necessary to account for such developments as medical practice or
coding changes, new data, or new procedures.

Global Surgery Fees

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 12,
section 40, contains the national global surgery policy establishing a single, consistent payment
across Medicare carrier jurisdictions nationwide for a surgery and related services when provided
by the physician who performs the surgery. A global surgery is a group of clinically related
services, including the surgical service and related preoperative and postoperative services, that
are treated as a single unit for coding, billing, and reimbursement.

CMS determines each global surgery fee based on the RVUs for a typical beneficiary receiving
the surgery and related E&M services during a global surgery period. The period for major
surgeries includes the day before the surgery, the day of the surgery, and the 90 days after the
day of the surgery. CMS estimates the number of E&M services that a typical beneficiary




1
 E&M services are nonsurgical services provided to diagnose and treat diseases or counsel and evaluate
beneficiaries.
2
    Payment for physicians’ services shall be the lesser of actual charges or the fee schedule amount.


                                                            1
receives during the global surgery period and includes reimbursement for that number of E&M
services in the global surgery fee.

Musculoskeletal Global Surgeries

The American Medical Association Current Procedural Terminology (CPT) is a list of
descriptive terms and codes that physicians use to report medical services and procedures and
claim reimbursement through the physician fee schedule. The CPT includes 1,355 codes for
major musculoskeletal global surgeries, such as knee arthroplasty, hand tendon repair, and lower
leg amputation. CMS reimbursed physicians approximately $1.5 billion for 1,331 of these CPT
codes for surgeries performed during calendar year (CY) 2007. 3

CMS requested this review.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether musculoskeletal global surgery fees reflected the actual
number of E&M services that physicians provided to beneficiaries during the global surgery
periods.

Scope

Our review covered Medicare payments totaling approximately $1.3 billion made to physicians
nationwide for 2,128,059 major musculoskeletal global surgeries and related E&M services
provided during CY 2007. Our review included only those surgeries in which the number of
E&M services provided to the typical beneficiary was known and the payment included
compensation for E&M services related to the surgery. 4 We excluded Medicare payments
totaling approximately $0.2 billion that did not meet those conditions.

We limited our review of internal controls to understanding CMS’s policies and procedures for
reimbursing physicians for global surgeries and establishing and updating global surgery fees.
We limited our review of RVUs to determining the number of E&M services included in
musculoskeletal global surgery fees. We did not determine the medical necessity of the surgeries
or the related E&M services.

Our fieldwork included contacting the inpatient facilities and physician offices nationwide that
performed the global surgeries and provided the E&M services.



3
    There were no payments for the remaining 24 CPT codes in CY 2007.
4
 CMS could not provide us with the number of E&M services included in the global surgery fee for 20 global
surgery CPT codes; therefore, Medicare payments for these codes were excluded from our review. We also
excluded any Medicare payments for global surgeries that did not include payment for E&M services, such as
payments for assistant surgeons.


                                                        2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   discussed Medicare global surgery policy and procedures, including the establishment
       and update of global surgery fees, with CMS staff;

   •   identified a sampling frame of 2,128,059 major musculoskeletal global surgeries totaling
       approximately $1.3 billion and divided the sampling frame into 3 strata
       (Appendix A):

       o stratum 1 for the 5 CPT codes that represented 44.5 percent of the total payments in
         the sampling frame (code 22612 for lumbar spine fusions, 27130 for total hip
         arthroplasties, 27236 and 27245 for treating thigh fractures, and 27447 for total knee
         arthroplasties);

       o stratum 2 for the 750 CPT codes that included fewer than 6 E&M services in the
         global surgery fees; and

       o stratum 3 for the 544 CPT codes (excluding the 5 CPT codes in stratum 1) that
         included 6 or more E&M services in the global surgery fees;

   •   randomly selected 100 surgeries from each stratum for a total of 300 surgeries with
       payments totaling $215,537 for 119 CPT codes;

   •   obtained all paid claims related to the sampled surgeries and, for each surgery:

       o identified the name of the beneficiary, date of the surgery, applicable 92-day global
         surgery period, name of the physician who performed the surgery, and name of the
         facility where the surgery took place;

       o requested and received medical records from the performing physician and the
         facility where the surgery took place, identified the actual number of visits provided
         during the global surgery period, and counted each visit as an E&M service; and

       o determined the difference, if any, between the actual number of E&M services
         provided to the beneficiary and the number of E&M services included in the global
         surgery fee and determined the net dollar value of the difference;

   •   used the sample results of 235 global surgeries examined for 88 CPT codes to estimate
       the Medicare reimbursement for E&M services that were included in musculoskeletal




                                                3
        global surgery fees but not provided to beneficiaries during global surgery periods in
        CY 2007 (Appendix B); 5 and

    •   discussed the results of our review with CMS on September 14, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                           RESULTS OF AUDIT

Musculoskeletal global surgery fees often did not reflect the actual number of E&M services that
physicians provided to beneficiaries during the global surgery periods. For 89 of the 300 global
surgeries that we sampled, either the fees reflected the actual number of E&M services provided
during the global surgery periods (24 surgeries) or the surgery was 1 of multiple surgeries
(65 surgeries). For the remaining 211 global surgeries, the fees did not reflect the actual number
of E&M services provided. Specifically, physicians provided fewer E&M services than were
included in 165 global surgery fees and provided more E&M services than were included in
46 global surgery fees.

Using our sample results, we estimated that Medicare paid a net $49 million for E&M services
that were included in musculoskeletal global surgery fees but not provided during the global
surgery periods in CY 2007. The global surgery fees did not reflect the actual number of E&M
services provided to beneficiaries because CMS had not reviewed or recently reviewed the
RVUs for most of the CPT codes in our sample.

FEDERAL REQUIREMENTS

Chapter 12, section 40, of the Manual provides that the global surgery fee includes payment for
the surgical service and preoperative and postoperative E&M services provided during the global
surgery period. The global period for major surgeries includes the day before the surgery, the
day of the surgery, and the 90 days after the day of the surgery. CMS compensates physicians
for the surgical service and related E&M services included in the fee regardless of the E&M
services actually provided during the global surgery period.




5
 We found that 65 of the 300 global surgeries that we sampled were performed as 1 of multiple surgeries.
Chapter 12, section 40.6, of the Manual defines “multiple surgeries” as separate procedures performed by a
physician on the same patient on the same day for which separate payment may be allowed. We were unable to
determine whether the E&M services that physicians provided were related to the sampled surgeries or to one of the
other surgeries performed on the same date of service. When evaluating our sample, we did not categorize these 65
sampled surgeries as errors.


                                                        4
EVALUATION AND MANAGEMENT SERVICES INCLUDED IN
MUSCULOSKELETAL GLOBAL SURGERY FEES VERSUS SERVICES PROVIDED

For 211 of the 235 musculoskeletal global surgeries that we examined, the global surgery fees
did not reflect the actual number of E&M services provided during the global surgery periods. 6
As shown in the following table, a total of 1,776 E&M services were included in the global
surgery fees for these 235 surgeries, but physicians provided 1,427 E&M services, a difference
of 349 E&M services totaling a net $9,883.

    Evaluation and Management Services Included in Musculoskeletal Global Surgery Fees
                               Versus Services Provided

                                                 Number of
                                                    E&M
             Number          Number of             Services           Actual
             of E&M           Sampled            Included in        Number of
             Services          Global              Sampled             E&M                            Net Dollar
             Included        Surgeries            Surgeries’         Services                          Value of
Stratum       in Fees        Examined                Fees            Provided         Difference      Difference 7
   1          Varies 8           88                    806              663              143            $4,065
   2            <6               71                    256              246               10               171
   3            ≥6               76                    714              518              196             5,647
 Total                          235                  1,776            1,427              349            $9,883

Using our sample results, we estimated that Medicare paid a net $49 million for E&M services
that were included in musculoskeletal global surgery fees but not provided during the global
surgery periods in CY 2007 (Appendix B).

RELATIVE VALUE UNITS NOT REVIEWED

Musculoskeletal global surgery fees did not reflect the actual number of E&M services provided
to beneficiaries because CMS had not reviewed or recently reviewed the RVUs for most of the
88 musculoskeletal global surgery CPT codes that we examined. Specifically, CMS:




6
 Because the remaining 65 surgeries sampled were performed as 1 of multiple surgeries, we were unable to
determine whether the E&M services that physicians provided were related to the sampled surgeries or to 1 of the
other surgeries performed on the same date of service. Therefore, we did not include them in this analysis and table.
7
 To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.
8
 CPT codes 27130, 27245, and 27447 have 9 E&M services included in the global fee, and CPT code 27236 has 10
E&M services included. CPT code 22612, which has 7 E&M services included, was in the sample but not examined
as part of the 235 musculoskeletal global surgeries.


                                                         5
   •   had not reviewed the RVUs for 35 codes since the fee schedule was established in 1992,

   •   last reviewed the RVUs for 21 codes between 1993 through 1999,

   •   last reviewed the RVUs for 10 codes between 2000 through 2007,

   •   last reviewed the RVUs for 19 codes after 2007 (the year the sampled surgeries
       occurred), and

   •   had not reviewed the RVUs for 3 codes established after the 1992 fee schedule.

Appendix C contains details on these reviews.

RECOMMENDATIONS

We recommend that CMS adjust the estimated number of E&M services within musculoskeletal
global surgery fees to reflect the actual number of E&M services being provided to beneficiaries,
which would have reduced payments in CY 2007 alone by an estimated $49 million, or use the
results of this audit during the annual update of the physician fee schedule.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred, in part, with the recommendations but
planned to conduct further analysis before proposing any changes in the number of E&M
services assigned to musculoskeletal surgeries. CMS will assess whether these services should
be reviewed under the potentially misvalued codes initiative.

CMS’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

CMS noted that the savings from any change in payments associated with our first
recommendation would be redistributed among other services under the physician fee schedule.
While this is true, implementing our recommendation would more closely align payment rates
with the cost of services provided.




                                                6
APPENDIXES
                                                                                                Page 1 of 2


                 APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of paid Medicare major musculoskeletal global surgeries with dates of
service in calendar year 2007.

SAMPLING FRAME

The sampling frame consisted of 2,128,059 major musculoskeletal global surgeries with
Medicare payments totaling $1,270,925,894. We excluded surgeries and their payments in
which the number of evaluation and management (E&M) services provided to the typical
beneficiary was unknown and excluded payments that did not include compensation for E&M
services related to the surgery, such as payments for assistant surgeons.

SAMPLE UNIT

The sample unit was a major musculoskeletal global surgery.

SAMPLE DESIGN

We used a stratified random sample.

                                   Description of Stratified Sample

    Stratum                   Description                      No. of Surgeries          Payments
                  Surgeries with the highest
                  total payments for five
         1        specific CPT codes 1                              516,747              $566,017,963
                  Surgeries with fewer than six
                  E&M services included in the
         2        fee                                             1,149,421                379,866,168
                  Surgeries (excluding those in
                  stratum 1) with six or more
                  E&M services included in the
        3         fee                                               461,891               325,041,763
        Total                                                     2,128,059            $1,270,925,894




1
  CPT = Current Procedural Terminology. CPT code 22612 has 7 E&M services included in the global fee; CPT
codes 27130, 27245, and 27447 have 9 E&M services included; and CPT code 27236 has 10 E&M services
included.
                                                                                      Page 2 of 2


SAMPLE SIZE

We selected a sample of 100 major musculoskeletal global surgeries from each stratum, resulting
in a total sample of 300 surgeries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate 100 random numbers for each stratum.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 100 random
numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total dollar amount of E&M services
included in global surgery fees but not provided during the global surgery periods.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES

Sample Results: Evaluation and Management Services Included in Musculoskeletal Global
                        Surgery Fees Versus Services Provided
                                                                                                               Net
                                         Number of       Number of       Number of                           Dollar
                                         Surgeries       Surgeries       Surgeries        Number of         Value of
              Number                        With            With            With          Surgeries        Difference
              of E&M        Number         Equal           Fewer           More           Performed            in
              Services         of          E&M             E&M             E&M            as One of         Number
              Included      Sampled       Services        Services        Services         Multiple         of E&M
Stratum        in Fees      Surgeries     Provided        Provided        Provided        Surgeries        Services 1

     1         Varies 2        100               10             65               13             12            $4,065
     2          <6             100                8             38               25             29               171
     3          ≥6             100                6             62                8             24             5,647
    Total                      300               24            165               46             65            $9,883




            Estimated Dollar Value of Evaluation and Management Services Included in
                      Musculoskeletal Global Surgery Fees but Not Provided
                                                          Limits Calculated for a 90-Percent
                                         Point                   Confidence Interval
                      Stratum
                                        Estimate
                                                           Lower Limit        Upper Limit
                           1            $21,005,352          $13,844,174              $28,166,530
                           2              1,963,326           -11,366,717              15,293,369
                           3             26,084,555            14,395,996              37,773,115
                                                                            3
                          Overall       $49,053,233          $30,111,621              $67,994,8463




1
 To calculate the net dollar value of the difference, we used 80 percent of the lowest fee schedule amount for an
E&M service included in the global surgery fee. The 80 percent represented the Federal share for the E&M service,
and the remaining 20 percent represented beneficiary coinsurance.
2
 CPT code 22612 has 7 E&M services included in the global fee; CPT codes 27130, 27245, and 27447 have 9 E&M
services included; and CPT code 27236 has 10 E&M services included.
3
  The sum of the lower limits for the three strata is not mathematically equal to the overall lower limit. The same is
true for the upper limits.
                                                                                                      Page 1 of 3


APPENDIX C: CURRENT PROCEDURAL TERMINOLOGY CODES AND DATES OF
   REVIEWS FOR SAMPLED MUSCULOSKELETAL SURGERIES EXAMINED

The 235 musculoskeletal global surgeries examined had 88 CPT codes. The following tables
identify the 88 CPT codes by stratum and indicate the year in which the Centers for Medicare
& Medicaid Services (CMS) last reviewed the relative value units for each code since
establishing the fee schedule in 1992.

                                                     Stratum 1
               CPT Code 1                 Description                      Last CMS Review
               27130             Total hip arthroplasty                          2007
               27236             Treat thigh fracture                            2007
               27447             Total knee arthroplasty                         2007
               27245             Treat thigh fracture                            2009

                                                     Stratum 2
               CPT Code                    Description                      Last CMS Review
               23500            Treat clavicle fracture                       Not reviewed
               23600            Treat humerus fracture                        Not reviewed
               23650            Treat shoulder dislocation                    Not reviewed
               24650            Treat radius fracture                         Not reviewed
               25248            Remove forearm foreign body                   Not reviewed
               25565            Treat fracture radius & ulna                  Not reviewed
               25600            Treat fracture radius/ulna                    Not reviewed
               25630            Treat wrist bone fracture                     Not reviewed
               26410            Repair hand tendon                            Not reviewed
               26750            Treat finger fracture, each                   Not reviewed
               27301            Drain thigh/knee lesion                       Not reviewed
               27786            Treatment of ankle fracture                   Not reviewed
               27840            Treat ankle dislocation                       Not reviewed
               28080            Removal of foot lesion                        Not reviewed
               28290            Correction of bunion                          Not reviewed
               29826            Shoulder arthroscopy/surgery                  Not reviewed
               29880            Knee arthroscopy/surgery                      Not reviewed
               29881            Knee arthroscopy/surgery                      Not reviewed
               28289            Repair hallux rigidus                         Not reviewed 2
               25605            Treat fracture radius/ulna                        1993
               22310            Treat spine fracture                              1996
               27266            Treat hip dislocation                             1997



1
    CPT code 22612 was in the sample but not examined as part of the 235 musculoskeletal global surgeries.
2
    CPT code 28289 was established in 1999.
                                                                                 Page 2 of 3


               CPT Code                   Description          Last CMS Review
               28285           Repair of hammertoe                   1997
               28750           Fusion of big toe joint               1997
               29876           Knee arthroscopy/surgery              1997
               21335           Treatment of nose fracture            1998
               21390           Treat eye socket fracture             1998
               27193           Treat pelvic ring fracture            1998
               28470           Treat metatarsal fracture             1998
               21800           Treatment of rib fracture             2002
               20680           Removal of support implant            2007
               26160           Remove tendon sheath lesion           2007
               26600           Treat metacarpal fracture             2007
               28505           Treat big toe fracture                2008
               28296           Correction of bunion                  2009
               21555           Remove lesion, neck/chest             2010
               21556           Remove lesion, neck/chest             2010
               21930           Remove lesion, back or flank          2010
               24075           Remove arm/elbow lesion               2010
               26115           Removal hand lesion subcut            2010

                                               Stratum 3
                CPT Code                 Description          Last CMS Review
                21627          Sternal debridement              Not reviewed
                26990          Drainage of pelvis lesion        Not reviewed
                27125          Partial hip replacement          Not reviewed
                27132          Total hip arthroplasty           Not reviewed
                27235          Treat thigh fracture             Not reviewed
                27385          Repair of thigh muscle           Not reviewed
                27446          Revision of knee joint           Not reviewed
                27508          Treatment of thigh fracture      Not reviewed
                27524          Treat kneecap fracture           Not reviewed
                27530          Treat knee fracture              Not reviewed
                27552          Treat knee dislocation           Not reviewed
                27596          Amputation followup surgery      Not reviewed
                27881          Amputation of lower leg          Not reviewed
                27886          Amputation followup surgery      Not reviewed
                27889          Amputation of foot at ankle      Not reviewed
                28292          Correction of bunion             Not reviewed
                28820          Amputation of toe                Not reviewed
                24341          Repair arm tendon/muscle         Not reviewed 3



3
    CPT code 24341 was established in 1997.
                                                                                Page 3 of 3


                CPT Code                Description           Last CMS Review
                               Treat fracture radial 3+
                25609          fragments                       Not reviewed 4
                24515          Treat humerus fracture              1997
                27134          Revise hip joint replacement        1997
                27137          Revise hip joint replacement        1997
                27486          Revise/replace knee joint           1997
                27487          Revise/replace knee joint           1997
                27488          Removal of knee prosthesis          1997
                27506          Treatment of thigh fracture         1997
                28293          Correction of bunion                1997
                28715          Fusion of foot bones                1997
                27503          Treatment of thigh fracture         1998
                27507          Treatment of thigh fracture         1998
                23472          Reconstruct shoulder joint          2002
                27590          Amputate leg at thigh               2002
                27880          Amputation of lower leg             2007
                23615          Treat humerus fracture              2008
                24579          Treat humerus fracture              2008
                25575          Treat fracture radius/ulna          2008
                27511          Treatment of thigh fracture         2008
                27814          Treatment of ankle fracture         2008
                27828          Treat lower leg fracture            2008
                23410          Repair rotator cuff, acute          2009
                23412          Repair rotator cuff, chronic        2009
                27244          Treat thigh fracture                2009
                23076          Removal of shoulder lesion          2010
                27329          Remove tumor, thigh/knee            2010




4
    CPT code 25609 was established in 2007.
                                                        Page 1 of 3
APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
Page 2 of 3
Page 3 of 3
